<html>
<title> - SOLVING AN EPIDEMIC: ADDRESSING HUMAN TRAFFICKING AROUND MAJOR EVENTS LIKE THE SUPER BOWL AND THE NEED FOR CROSS-JURISDICTIONAL SOLUTIONS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
 SOLVING AN EPIDEMIC: ADDRESSING HUMAN TRAFFICKING AROUND MAJOR EVENTS 
  LIKE THE SUPER BOWL AND THE NEED FOR CROSS-JURISDICTIONAL SOLUTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON LEGISLATIVE AND
                             BUDGET PROCESS

                                 OF THE

                           COMMITTEE ON RULES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      WEDNESDAY, DECEMBER 11, 2019

                               __________





              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                               

                    Available via http://govinfo.gov 
             Printed for the use of the Committee on Rules
                               __________

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
39-699                     WASHINGTON : 2020 
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
             
                           COMMITTEE ON RULES

               JAMES P. McGOVERN, Massachusetts, Chairman
ALCEE L. HASTINGS, Florida,          TOM COLE, Oklahoma,
  Vice Chair                           Ranking Republican
NORMA J. TORRES, California          ROB WOODALL, Georgia
ED PERLMUTTER, Colorado              MICHAEL C. BURGESS, Texas
JAMIE RASKIN, Maryland               DEBBIE LESKO, Arizona
MARY GAY SCANLON, Pennsylvania
JOSEPH D. MORELLE, New York
DONNA E. SHALALA, Florida
MARK DeSAULNIER, California
                       DON SISSON, Staff Director
                  KELLY DIXON, Minority Staff Director
                                 ------                                

             Subcommittee on Legislative and Budget Process

                  ALCEE L. HASTINGS, Florida, Chairman
JOSEPH D. MORELLE, New York,         ROB WOODALL, Georgia,
  Vice Chair                           Ranking Republican
MARY GAY SCANLON, Pennsylvania       MICHAEL C. BURGESS, Texas
DONNA E. SHALALA, Florida
JAMES P. McGOVERN, Massachusetts
                                 ------                                

          Subcommittee on Rules and Organization of the House

                   NORMA J. TORRES, California, Chair
ED PERLMUTTER, Colorado,             DEBBIE LESKO, Arizona,
  Vice Chair                           Ranking Republican
MARY GAY SCANLON, Pennsylvania       ROB WOODALL, Georgia
JOSEPH D. MORELLE, New York
JAMES P. McGOVERN, Massachusetts
                                 ------                                

                  Subcommittee on Expedited Procedures

                     JAMIE RASKIN, Maryland, Chair
DONNA E. SHALALA, Florida,           MICHAEL C. BURGESS, Texas,
  Vice Chair                           Ranking Republican
NORMA J. TORRES, California          DEBBIE LESKO, Arizona
MARK DeSAULNIER, California
JAMES P. McGOVERN, Massachusetts 
















                            C O N T E N T S

                              ----------                              

                           December 11, 2019

                                                                   Page
Opening Statements:
    Hon. Donna Shalala, a Representative in Congress from the 
      State of Florida and Member of the Subcommittee on 
      Legislative and Budget Process.............................     1
    Hon. Rob Woodall, a Representative in Congress from the State 
      of Georgia and Ranking Member of the Subcommittee on 
      Legislative and Budget Process.............................     2
    Hon. Alcee Hastings, a Representative in Congress from the 
      State of Florida and Chairman of the Subcommittee on 
      Legislative and Budget Process.............................     3
Witness Testimony:
    Ms. Jean Bruggeman, Executive Director, Freedom Network USA..     9
        Prepared Statement.......................................    11
    Ms. Katherine Fernandez Rundle, State Attorney, Miami-Dade 
      County.....................................................    23
        Prepared Statement.......................................    26
    Dr. JoNell Potter, Clinical Professor, University of Miami & 
      Vice Chair for Research, THRIVE Clinic.....................    32
        Prepared Statement.......................................    34
    Mr. Bill Woolf, Executive Director, Just Ask Prevention & 
      Director, National Human Trafficking Intelligence Center...    36
        Prepared Statement.......................................    39
    Mr. Bob Rodgers, President and CEO, Street Grace.............    54
        Prepared Statement.......................................    57
Additional Material Submitted for the Record:
    Statement from Congresswoman Wasserman Schultz dated December 
      11, 2019...................................................     6
    Statement from Ms. Hanni Stoklosa, Executive Director, Co-
      founder, HEAL (Health, Education, Advocacy, and Linkages) 
      Trafficking dated December 11, 2019........................    61
    Statement from American Hotel & Lodging Association dated 
      December 10, 2019..........................................    67
    Statement from National Football League dated December 9, 
      2019.......................................................    70
    Article by Laurie Anderson, UGA Today, entitled ``UGA 
      receives $15.75M to combat human trafficking'' dated 
      November 19, 2019..........................................    89
    Document entitled ``FY18 and FY19 TVPA Human Trafficking 
      Funding Restriction'' by Freedom Network USA...............    92
    Curriculum Vitae and Truth in Testimony Forms for Witnesses 
      Testifying Before the Committee............................    96





 SOLVING AN EPIDEMIC: ADDRESSING HUMAN TRAFFICKING AROUND MAJOR EVENTS 
  LIKE THE SUPER BOWL AND THE NEED FOR CROSS-JURISDICTIONAL SOLUTIONS 
                    [ORIGINAL JURISDICTION HEARING]

                              ----------                            


                      WEDNESDAY, DECEMBER 11, 2019

                  House of Representatives,
    Subcommittee on Legislative and Budget Process,
                                        Committee on Rules,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
Room H-313, The Capitol, Hon. Donna E. Shalala presiding.
    Present: Representatives Hastings, Morelle, Scanlon, 
Shalala, McGovern, Woodall, and Burgess.
    Ms. Shalala. The Subcommittee on Legislative and Budget 
Process of the committee on rules will come to order.
    I want to welcome the witnesses and thank them for being 
here today. I also want to thank my colleague and friend Alcee 
Hastings from Florida, the distinguished chair of the 
subcommittee, for his leadership, as well as the chair of the 
full committee, Mr. McGovern from Massachusetts. I appreciate 
you passing the gavel off to me for this hearing.
    I apologize in advance if I have to leave the room before 
we adjourn as I am managing a rule on the floor this afternoon.
    We are here today, first and foremost, to learn. With the 
help of this expert panel, we will learn about the issue of 
human trafficking. Human trafficking is a worldwide issue, with 
millions of men, women, and children forced into labor, the sex 
trade, drug smuggling, and other forms of exploitation.
    Large sporting events that draw huge audiences of out-of-
town visitors often serve as magnets for human trafficking, 
fueling a multibillion dollar criminal industry. As this vile 
industry grows, municipalities, counties, States and countries 
around the world have expanded their efforts to combat human 
trafficking by focusing on these events.
    As we all know, the Super Bowl is being hosted in Miami 
next February. Sometimes dubbed the largest human trafficking 
event in the United States, the Super Bowl presents an 
opportunity to begin a conversation on human trafficking and 
highlight the efforts of Miami-Dade County and other 
communities across the Nation to eliminate this epidemic.
    The Super Bowl happens one day a year, but we must be 
vigilant about combating human trafficking every day. While the 
Super Bowl may bring increased incidents of tragedies like 
human trafficking, it also brings increased resources to 
counter the issues that arise from the event's presence. We 
need to examine the resources available in the effort to combat 
human trafficking in every community year-round.
    Today, we will learn about the complexities of combating 
human trafficking, the ways the Federal Government is assisting 
local law enforcement, and the additional resources that are 
needed for prevention.
    How do we make better laws? How do we deliver better 
Federal resources? How do we better provide support for 
survivors of human trafficking? I look forward to exploring 
these questions and learning from you as we seek to develop 
effective solutions. Thank you very much.
    The chair now recognizes the ranking member of the 
subcommittee, Mr. Woodall, for any opening statements he wishes 
to make.
    Mr. Woodall.
    Mr. Woodall. Thank you, Madam Chair, and thank you for your 
leadership on the issue. Thank you to Mr. Hastings for bringing 
us all together.
    You have got the Super Bowl coming. We, of course, in 
Atlanta had the Super Bowl going. And the kind of collaboration 
that came together in my home State is something that I am just 
incredibly proud of. I wish we didn't have to come together in 
that way. And I know we can always do better, and so I am very 
pleased that we have got such a distinguished panel to talk 
about that.
    You all don't know, but generally sitting in those chairs 
we have got the chairman and ranking members of whatever the 
committee of jurisdiction is. Ordinarily, we don't have outside 
witnesses. Our folks who testify in the Rules Committee are the 
chairman who is bringing legislation and the ranking member who 
is either collaborating on that legislation or vehemently 
opposed to that legislation. So, so often, we have a partisan 
conversation from that table. I am so looking forward today to 
a nonpartisan issue, something that we are all invested in. We 
may come to it from a different perspective, but we all have 
the same goal in mind. And that is certainly the way that 
Secretary Shalala has led in her time here on this committee, 
and I look forward to that leadership today.
    If Miami needs any advice and counsel, I don't want you to 
feel shy about coming to Atlanta. When it comes time to 
introduce our witnesses, I brought one of our very best from 
Atlanta, a gentleman who leads an absolutely fabulous 
organization that has a tremendous record of partnership. But I 
don't want to spend any more time hearing from someone who 
doesn't have expertise in this area. I would love to hear from 
folks who do, so I yield back.
    Ms. Shalala. Thank you. Chairman McGovern.
    Mr. McGovern. Thank you. And I want to thank both Chairman 
Hastings and Representative Shalala for bringing us together 
today on this very important issue. Chairman Hastings has been 
a leader in this fight against human trafficking for much of 
his career, using his other chairmanship at the Helsinki 
Commission to make a difference on an issue as difficult, 
complex, horrifying and important as this one, and I want to 
thank him for his leadership.
    And I also want to thank Representative Shalala for putting 
together this incredibly talented panel to help us at the Rules 
Committee learn about human trafficking nationally, but also as 
it impacts her district in Miami, Florida.
    You know, like Mr. Hastings, I have another chairmanship as 
well. I serve as the co-chair of the Tom Lantos Human Rights 
Commission with my colleague from New Jersey, Congressman Chris 
Smith. And for that chairmanship and, believe it or not, this 
chairmanship too, I work every day to promote these goals: That 
every person must be free, free of persecution, free from 
manipulation and free from coercion, and every person deserves 
dignity, respect, and autonomy to achieve the destiny of their 
choosing. And all of us, every single one of us plays a role in 
achieving a freer, fairer world. And so to our witnesses, I 
want to thank you for the work that you do to end human 
trafficking and to help survivors reclaim and reengineer their 
lives.
    There is hope in this story, and I thank you for sharing it 
with us. When any major event like the Super Bowl comes to 
town, Federal attention and resources flow into the community. 
And it is important for Congress to understand the role our 
Federal agencies play, how Federal resources are assisting 
local communities and how we can do more together to stop human 
trafficking.
    It is also important that we understand that human 
trafficking is a 365-day-a-year problem that requires a 365-
day-a-year solution. We also know that human trafficking is a 
complex issue. As we here in Congress work to find solutions, 
we would be well-served to ask ourselves how our silos might 
inhibit our thinking about how to direct resources to help 
communities address trafficking.
    And so, again, this is an incredibly important topic, and I 
think we are all grateful that you have come here to give us 
your expertise and advice. So thank you, and I yield back.
    Ms. Shalala. Thank you.
    Mr. Hastings.
    Mr. Hastings. Thank you, Mr. Chairman. And I wish to 
especially thank my distinguished colleague, Ms. Shalala. When 
I see the person I call Donna all the time, I think of all the 
titles that she has, president and Secretary and now Congress 
people and whatever. It is sort of like at one point I was a 
judge and I was a lawyer and I had letters of doctorate, and 
people would ask me, say, what do you want to call me? I would 
say, ``Just call me often.'' That is all. So that is what we do 
with her.
    But I am especially pleased that she agreed to lead this 
morning's hearing, which marks the Subcommittee on Legislative 
and Budget Processes' second hearing of the 116th Congress. And 
I thank the chairman for letting us carry forth in that way.
    I am pleased to welcome our witnesses. I don't know all of 
you. I know the reputation of two of you, and I know one of you 
very well, who has hasn't aged a bit, and I am jealous, 
Katherine Fernandez Rundle. I am pleased to welcome them and 
grateful that they are here.
    We will hear from a number of experts, so I will keep my 
remarks brief. We are here today to address human trafficking 
around major events like the Super Bowl. And not meant to 
correct you very much, Madam Secretary, but you said the Super 
Bowl is one day a year. I have been at parties for the Super 
Bowl a week in advance and got hung over and was a week later 
as well.
    But we do need cross-jurisdictional solutions. And this 
morning's hearing is going to focus on the complexities of 
combating human trafficking and ways the Federal Government is 
assisting local law enforcement and additional resources needed 
to increase our prevention.
    The need for Congress to prioritize fighting this heinous 
form of modern day slavery is urgently clear. The United States 
has one of the highest rates of human trafficking in the world, 
but this is a local, not just a global problem. There have been 
incidents of trafficking identified in all 50 States and 
Washington, D.C., and centers of major events, tourism, and 
entertainment, including California, Texas, and Florida are 
among the major destinations for human trafficking victims.
    I am painfully aware that my home State of Florida is 
facing this epidemic on a daily basis and have long fought to 
boost both awareness and prevention efforts for this very 
reason. And the State attorney of Miami has done some forward-
leaning things that I am sure she is going to tell us about at 
the instance of working with attorney general of the State of 
Florida. They did some incredible work and stood up a building 
even.
    It is estimated that half of Florida's trafficking victims 
are under 18 years old, with children from high-risk 
backgrounds being the most vulnerable to exploitation and 
trafficking. In September, Florida's State Board of Education 
approved a new rule to require K through 12 students to learn 
about the dangers posed by traffickers.
    However, there is still much to do to address this epidemic 
in Florida and across our Nation. That is why, without going 
into great detail, I have introduced several bills, as have 
many of my colleagues, and I won't mention them in the interest 
of time. But in September, I have worked with ECPAT-USA, a 
leader in fighting child sex trafficking, to introduce an 
important guide which helps Members of Congress effectively 
begin to discuss and address cases of new trafficking in their 
respective jurisdictions.
    As presentations for the Super Bowl continue in Miami, it 
is imperative that we do everything we can to better understand 
how we can protect our communities and our children from the 
horrors and trauma of human trafficking. Today's hearing is a 
vital step in that direction.
    And, Madam Chair, with your permission, I would like to 
introduce into the record a statement of our colleague Debbie 
Wasserman Schultz and also her statement in support of the 
effort that she has made, states hundreds of trafficking cases 
last year, she says, and south Florida is one of the worst 
epicenters for this heinous crime. The Congresswoman is 
currently working on legislation which mandates trafficking 
awareness and intervention training to hotel employees.
    And I will footnote right there. This isn't only in hotels. 
We need to pay attention to other places where this activity 
flourishes, particularly around bars. And it also requires the 
development and display of public materials on human 
trafficking in lodging facilities. Most importantly, it will 
include a provision of enforcement so that hotels will be held 
accountable or have an opportunity to amend their wrongdoing.
    With no objection, I would like to formally enter the 
statement for the record.
    Ms. Shalala. Without objection.
    [The information follows:]


              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastings. Thank you very much, Madam Chair.
    Ms. Shalala. Dr. Burgess.
    Dr. Burgess. Thank you, Chairman Shalala. I apologize. I am 
going to have to go to another meeting, but I did want to--and 
I will submit these questions in writing, but I want to just 
speak to them just if I could to give you some context and 
background.
    Like Mr. Hastings, until last year, I was on the Helsinki 
Commission. I was removed because we lost a seat because we 
lost Members of the House. Long story. But part of that time--
Mr. Hastings is quite correct. Human trafficking is something 
that we took testimony on. And some of the most compelling 
testimony that I heard was one morning when we had two 
witnesses from Central America, who were speaking through 
translators, and they had been brought to this country and 
trafficked and used for the worst purposes, but they were 
trafficked by family members. And so, particularly for Dr. 
Potter--now, the focus of the hearing was, why isn't our 
healthcare system doing a better job of detecting this? I got 
defensive, and, you know, why aren't people telling us the 
truth when they come to see us as doctors.
    But I think even just an awareness that this could happen 
and a patient where they are not allowed to speak for 
themselves. They are never allowed to be alone with the 
provider in any way, shape, or form. Some of these things ought 
to be red flags and ought to be conveyed, whether it is through 
our professional organizations or medical schools, but this is, 
unfortunately, something that all of us could see during a 
typical practice time.
    And, Mr. Rodgers, again, just the same thing. I mean, these 
were ladies who were trafficked by transnational gangs, but 
then their family members were involved in their trafficking. 
And I won't be here, but I will look forward to your testimony 
on how we are able to perhaps deal with that and intercept 
that.
    So thank you, Madam Chairman. I will yield back.
    Ms. Shalala. Mr. Morelle.
    Mr. Morelle. I want to thank you both, Mr. Chairman, and my 
colleague Representative Shalala as well as Chairman McGovern 
for organizing this. I know that in New York, when I was a 
State legislator, we took a number of steps at the State level 
to provide resources for victims and also to strengthen State 
laws. This is clearly a Federal and international problem and 
deserves a Federal response.
    So I just appreciate the witnesses being here, and I am 
looking forward to their testimony. So thank you.
    Ms. Shalala. Thank you very much. Let me introduce our 
witnesses. Jean Bruggeman is executive director of the Freedom 
Network USA, a coalition that provides services to survivors of 
human trafficking in the United States.
    Katherine Fernandez Rundle is the Miami-Dade County State 
Attorney. In this role, she leads the Human Trafficking Task 
Force, a cooperative multiagency law enforcement effort.
    Dr. JoNell Potter is clinical professor at the University 
of Miami, vice chair for research at the THRIVE Clinic. She has 
built a comprehensive model of healthcare for survivors of 
human trafficking.
    Bill Woolf is executive director of Just Ask Prevention and 
director of the National Human Trafficking Intelligence Center. 
Just Ask Prevention is a leader in educating communities on 
strategies to identify and respond to human trafficking.
    And Bob Rodgers is president and CEO of Street Grace, which 
focuses on countering commercial sex exploitation of children 
through faith-based prevention and policy.
    We will start with you.
    Ms. Bruggeman. Thank you.
    Mr. Hastings. Get your microphone. Just press it, and the 
green light will come on.

   STATEMENT OF JEAN BRUGGEMAN, EXECUTIVE DIRECTOR, FREEDOM 
                          NETWORK USA

    Ms. Bruggeman. Thank you for the IT assistance.
    Chairman McGovern, Secretary Shalala, Ranking Member 
Woodall, Congressman Hastings, committee members and staff, 
thank you for the opportunity to discuss the need to address 
human trafficking in the United States.
    I am Jean Bruggeman, executive director of Freedom Network 
USA. I am an immigration attorney by training, with 20 years of 
experience in addressing violence and exploitation, including 
human trafficking, within the United States. Freedom Network 
USA was established in 2001 and is now the Nation's largest 
coalition of human trafficking service providers, and we are a 
leader in human trafficking training and technical assistance 
and policy advocacy.
    Our 68 members are NGOs and individuals that provide 
services to and advocate for the rights of trafficking 
survivors here in the United States. Our members include 
survivors themselves as well as former prosecutors, civil and 
criminal attorneys, and social service providers, who work with 
over 2,000 trafficking survivors each year. I have provided 
detailed recommendations in my written statement, but I will 
summarize those briefly now.
    The unfortunate truth is that no jurisdiction in the United 
States is successfully and comprehensively addressing human 
trafficking, which includes compelled work in a wide variety of 
industries, both legal and illicit. While it is important to 
note that there has been an increased understanding of sex 
trafficking across the United States, labor trafficking, 
especially child labor trafficking, continues to be mostly 
ignored.
    While trafficking can happen to anyone anywhere in the 
U.S., there are clear patterns. Some populations are at higher 
risk. Immigrants are most often victims of labor trafficking 
with, for example, predominantly women exploited in domestic 
work and men in agriculture. Girls and young women, both U.S. 
citizen and foreign nationals, as well as LGBTQIA youth are 
more likely to be exploited by sex traffickers.
    However, our understanding of the full complexities of 
victim populations is incomplete, and some of our policy 
efforts are unintentionally exacerbating this problem. The 
focus on child sex trafficking, while laudable and important, 
has, unfortunately, created a dangerous feedback loop. The 
Preventing Sex Trafficking and Strengthening Families Act of 
2014, for example, specifically requires the identification and 
reporting of child sex trafficking only in the child welfare 
system. Therefore, the data suggests that child labor 
trafficking does not exist and does not need further attention 
and efforts. This demonstrates how important it is to design 
approaches and solutions that both focus on the most prominent 
problems without ignoring or excluding any victims.
    While the Super Bowl brings us here today, it is not the 
cause of human trafficking, and trafficking will not end when 
the players leave the field or Mr. Hastings gets over his 
hangover. Human trafficking, as you have already noted, is a 
24/7, 365 days a year crime. It is happening in our homes, our 
stores, our restaurants, our fields and factories and on our 
streets all across America.
    We can, however, use the energy and attention of sporting 
events to bring attention and resources to this issue, but we 
must do so responsibly, focusing on the true facts before us. 
The U.S. has been focusing efforts on human trafficking since 
the passage of the 2000 Trafficking Victims Protection Act.
    The President's Interagency Task Force, or PITF, has 
brought agencies together from across the government to 
collaborate and coordinate, and yet you know that there is more 
work to be done. Funding for services for trafficking survivors 
has increased from the initial authorizations of about $5 
million each for DOJ and HHS to over $100 million for 2020. 
Investigations and prosecutions are up, with State laws 
allowing for more jurisdictions to bring cases.
    However, services continue to be insufficient and focus on 
short-term services instead of long-term recovery. Prosecutions 
of labor trafficking are stagnant at best, and too often law 
enforcement resources designated for sex trafficking are 
squandered on arresting sex workers and buyers without 
identifying a single trafficking victim or the high-level 
traffickers who remain in operation.
    Survivors continue to be arrested for the crimes they 
commit that their traffickers have forced them to commit, only 
to then be trapped in a cycle of dependency and poverty by 
those criminal records while they are denied legal relief from 
these charges.
    We have also failed to address primary prevention in a 
comprehensive way to change the factors that are putting people 
at high risk of human trafficking. In fact, many policies have 
increased the risk for immigrants, LGBTQIA community members, 
and people living in poverty across the United States.
    We must continue to focus on more comprehensive solutions 
to not only meet the needs of those who have been victimized, 
but to change the systems that make this crime so pervasive in 
the first place.
    Thank you for your commitment to a comprehensive approach 
to human trafficking in the U.S., and I look forward to your 
questions.
    [The statement of Ms. Bruggeman follows:]
    
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
    
    Ms. Shalala. Thank you very much.
    Ms. Fernandez Rundle.

STATEMENT OF KATHERINE FERNANDEZ RUNDLE, STATE ATTORNEY, MIAMI-
                          DADE COUNTY

    Ms. Fernandez Rundle. Good morning, Madam Chair Shalala and 
Chairman Hastings. It is a real treat to be in front of you, 
two people that I have thought of so highly all these years. So 
thank you very much. And, Chairman McGovern, thank you so much 
for hosting this. And to all the members of this committee, 
thank you for putting such a spotlight on this issue and for 
hosting this today, having this hearing.
    My name is Katherine Fernandez Rundle, and I am the State 
Attorney for Miami-Dade County, Florida. Throughout my career, 
I have seen the effects of many horrific crimes, but it wasn't 
until 2012, when I read that Florida was reported to be number 
three, the third in the United States in the number of victims 
of human trafficking, and Miami-Dade was number one, which is 
my county, and I realized that this crime was happening in our 
own backyard, and we didn't see it. And I have since learned if 
you are not looking for human trafficking, you are not going to 
see human trafficking.
    So our experience is that human trafficking does not limit 
itself to stereotypes that are depicted in the movies. It 
occurs in hotels, massage parlors, even licensed storefronts. 
It affects every single one of our communities, rich or poor, 
every ethnicity, every race, every gender, and, most 
importantly, it is primarily targeting our children and our 
youth.
    I am happy to report we have come a long way since 2012, 
and my office has worked with over 700 victims of human 
trafficking, and we have been able to file over 619 criminal 
human trafficking-related cases. Our victims are ages as low as 
12 years old. Human trafficking we all know, because you have 
been paying good attention to this for many years, it is ugly, 
and it is often an inhumane crime of exploitation.
    Not surprisingly, the victims typically are the most 
vulnerable. They primarily are children and youth. And our 
experience in Miami is that over 34 percent of these cases--of 
course, that fluctuates as they come and go--involves victims 
under the age of 18, as you were pointing out earlier, Mr. 
Hastings. The remaining 66 percent were really between the ages 
of 18 and 24. So you are really talking about very young folks, 
and 90 to 92 percent of them are female. Our cases involve 
local victims that include children and youth from our schools 
and from our parks and from our foster care system.
    Human trafficking is no doubt a public health and mental 
health threat to our children and our youth. Rescuing human 
trafficking victims requires much more, though, than just 
locating them and physically removing them from their 
predators. Most have no home, no safe home to return to. They 
have no clothing, other than what is on their back when you 
rescue them, and many have not eaten or slept in days.
    Many have been beaten, drugged, raped, isolated, branded, 
threatened with retaliation, stripped of all their dignity and 
their identity. Their mental, physical, and emotional injuries 
are so profound, many are unable to heal and rebound without 
any substantial or sustainable resources and assistance. When 
proper services are not provided, many of these victims end up 
back on the streets, where traffickers are just waiting for 
them to save them and restart that sexual exploitation and 
violent abuse cycle.
    For us in prosecution and law enforcement, we have learned 
that we needed to develop new methods of investigation and 
prosecution and develop a network of victim services. Our human 
trafficking prosecutions have become victim-focused and not 
reliant on the victim. What we have tried to do is create a 
community safety net of partnerships in all different silos 
that will assist us with the housing, the physical and the 
mental health needs, and getting them reintegrated into 
society. You will hear today from our great colleague here to 
my left from the THRIVE Clinic, such an integral and valuable 
partner of ours.
    The key, though, is to find the long-term sustainable 
resources that are really necessary to address the victims 
throughout a pendency of a prosecution. This is a constant 
struggle for us, and it is a constant struggle for them. In 
2018, we opened our Institute for Coordination, Advocacy and 
Prosecution of Human Trafficking. We call it ICAP.
    It is one building that is dedicated solely to combating 
human trafficking, with the goal of creating a single doorway 
that focuses on efforts that include prosecutors, law 
enforcement, all our victim services, all our community 
partners. They say it takes a village. Well, that is what we 
tried to do. We tried to build a village, and we have created 
one.
    Miami is very collaborative, we are a great community in 
that respect, but we would not have become a national model 
without all our community service providers. It is not just 
about law enforcement. And large-scale events like the Super 
Bowl that we are all talking about today, our limited resources 
are even more strained.
    So Super Bowl LIV is taking place in my community in less 
than 2 months. And while we have been preparing for the surge 
that this may bring, we could use more help. We fear that 
traffickers will be coming to our city to make money during the 
Super Bowl, because that is what it is. It is all about money. 
It is about selling our children and youth for money.
    But to protect our most vulnerable and to rescue and 
transport them in, what we have tried to do as a community is 
create training and very costly messaging about what is human 
trafficking and what everyone in the community should be 
looking for. We have also tried to create a good reporting 
method and then have rapid response teams that can respond out 
to the community that consists of not just law enforcement but 
medical professionals, to have them on standby, to have 
prosecutors on call, to have housing readily available, food, 
clothing, and a whole host of other services.
    So we are looking at the Super Bowl as an opportunity. It 
is an opportunity that is going to give us an opportunity to 
have an aggressive and comprehensive awareness campaign that we 
have developed. We have just created a new hotline. It is 
called 305-FIX-STOP. It stands for fix it, stop it, and it will 
have text and hashtag capabilities.
    The goal is, upon receiving that call into that one 
hotline, we will have a rapid-response team, depending on the 
circumstances, of course, that will be dispatched right out to 
investigate immediately and/or rescue that victim and pull them 
into that network of care coordinators and services.
    The campaign will be launched by--was launched by the 
Women's Fund last month. It is a community wide. We have 35 
municipalities in our reach, from the airport, seaport, truck 
stops to billboards to public transportation sites. Hopefully, 
we can serve for the rest of the community, the rest of the 
world, if you like, as a demonstration to other communities on 
how to attack crime, especially when there are these major 
events.
    But as I have heard said here, it doesn't end just there. 
They are going to leave. Super Bowls come and go. And so what 
we are going to need to do is make sure that what we have built 
we are able to sustain long after the Super Bowl leaves us. And 
so, for this long 365-days-a-year problem that we have, we are 
now talking about how we are going to sustain that past that.
    So I thank all of you so much. I have put some paperwork 
here. I am going to try to stick to my time limit. We know 
where we need to go with this. And so I thank you so much, as 
our Federal Government and our Federal Representatives, for 
listening to us, inviting us here today, and I look forward to 
continuing this conversation.
    [The statement of Ms. Fernandez Rundle follows:]



              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    
    Ms. Shalala. Thank you very much.
    Dr. Potter.

 STATEMENT OF JONELL POTTER, CLINICAL PROFESSOR, UNIVERSITY OF 
         MIAMI & VICE CHAIR FOR RESEARCH, THRIVE CLINIC

    Ms. Potter. Good morning, Madam Chair, Chairman Hastings, 
Chairman McGovern, committee members, your amazing staff, thank 
you for the opportunity to speak to you today. I am a professor 
of clinical obstetrics, gynecology, and reproductive sciences, 
pediatrics, and nursing at the University of Miami in Miami, 
Florida. My career began in the early 1980s, when the HIV 
epidemic emerged in Miami. I led the design of comprehensive 
multidisciplinary models of care to help the women and children 
living with HIV access healthcare services.
    This experience taught me to listen to my patients. The 
patients taught me about fear, abandonment, and stigma. They 
also taught me about the incredible strength of the human 
spirit. We were able to build models of care that helped these 
vulnerable populations live healthy lives, and what we learned 
in Miami spread to clinics across the country.
    Six years ago, I was contacted by local law enforcement and 
members of the Human Trafficking Task Force in Miami to provide 
medical care for victims that they had identified. What I 
encountered in my exam room led me on a new journey. I realized 
these survivors, often taken as young children, had experienced 
years of abuse and medical neglect and had tremendous 
healthcare and mental health needs. Their healthcare needs 
were, frankly, beyond the scope of anything that we had in 
place. And I took on a new mission.
    I am here to speak with you today because, since then, we 
have established a comprehensive model of healthcare for 
survivors of human trafficking. At the University of Miami, 
along with our partners at Jackson Health System, we developed 
one of the first clinics in the Nation to help survivors access 
healthcare and mental health services. We saw this as an 
emergency and we responded.
    The clinic is called THRIVE. We provide medical, primary, 
and specialty care, mental health and behavioral care services 
to address the very unique needs of this population, who are 
deeply impacted by poverty, housing insecurity, food 
insecurity, and illiteracy. Many of the survivors have had 
little or no education. Most have no identification or records 
of any kind. Many have never had any healthcare or proper 
nutrition. They have all suffered from trauma, from being held 
captive in one way or another.
    Our healthcare model is designed on the basic principles we 
developed listening to the survivors. Trust is critical. The 
most important issue for survivors is building trust. They have 
been brainwashed by their traffickers and taught not to trust 
anyone. We start by deliberately developing a trusting 
relationship.
    Patient navigators add safety and support. Getting care can 
be overwhelming. We employ navigators, usually survivors who 
have reentered the workforce who chaperone the patient through 
every visit. No waiting rooms. Waiting rooms make our patients 
too nervous. Having their name called out to come to the desk 
in a public place is very frightening for them. We admit and 
discharge every patient inside the exam room. We have 
reengineered the medical model.
    Specialists come to the clinic. Our patients cannot 
negotiate multiple medical appointments in multiple facilities, 
but most of the care they need comes from specialists. So the 
physicians and nurses at Jackson Health System and the 
University of Miami come to the same familiar clinic room every 
time to see the patients.
    We take a medical history only once. Repeating their 
history retraumatizes our patients. So we take a medical 
history only once and ask all the providers to review it before 
they see the patient.
    We have learned that no medical history is routine. 
Survivors often cannot or do not want to remember. Their 
stories change over time as they are able to share and trust. 
They are not lying. They have blocked out the trauma to 
survive. Every patient needs comprehensive care. Our patients 
have physical injuries and illnesses that have been untreated 
for years. They have bones that were broken a decade ago. They 
have never seen a dentist. They need coordinated comprehensive 
healthcare.
    Extensive mental healthcare is essential. All of our 
patients, every one of them has posttraumatic stress with all 
of the classic symptoms: flashbacks, nightmares, anxiety, 
depression, suicide attempts. What these survivors need most is 
mental healthcare, and there are simply not enough available. 
We are just beginning, but we have already seen results. Some 
survivors relapse, but most do not. They are successfully 
reengineering their lives.
    Our clinic has been replicated in another Florida 
community. We are collaborating and sharing best practices with 
a program in Texas and Atlanta. Atlanta has called us to 
replicate our model there.
    So, in closing, I just want to reiterate what my colleagues 
have already said and what you already know. Human trafficking 
exists in every State in our Nation. I urge you to support 
funding to establish medical demonstration projects designed to 
evaluate the most effective model of medical and mental health 
aftercare for survivors of human trafficking.
    Thank you for the opportunity today, and I look forward to 
your questions.
    [The statement of Ms. Potter follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Shalala. Thank you very much, Ms. Potter.
    Mr. Woolf.

     STATEMENT OF BILL WOOLF, EXECUTIVE DIRECTOR, JUST ASK 
PREVENTION & DIRECTOR, NATIONAL HUMAN TRAFFICKING INTELLIGENCE 
                             CENTER

    Mr. Woolf. Madam Chair, honorable members, good morning. It 
is, indeed, a privilege to be here, sitting next to these 
highly respected experts in the field of human trafficking, and 
quite humbling.
    I started my career almost 20 years ago as a Fairfax County 
police officer, first working as a patrol officer, then 
graduating to a detective assigned to work in the gang 
investigations unit. It was during the course of one of my 
investigations into the notorious MS-13 gang that I first 
encountered human trafficking.
    My experience was similar to so many other law enforcement 
officers when they encounter their first case. I had no idea 
what I was looking at. As I became aware of what I would later 
learn was human trafficking, my initial belief was that it was 
just prostitution.
    I had never received any training or education surrounding 
the issue of human trafficking. Those words had not been a part 
of my academy instruction, and so the concept was quite 
foreign, much like I believed something such as human 
trafficking was simply a foreign problem. Sadly, this lack of 
training for law enforcement is still a problem today, with 
some estimating less than 5 percent of law enforcement in the 
United States have received adequate identification and 
response training.
    My eyes were quickly opened to the reality and prevalence 
of this horrible crime. That reality: Human trafficking is 
exploiting men, women and children alike, yes, in foreign 
lands, but, more disturbingly, right here in the United States. 
The land of the free has become one of the top three countries 
of origin for modern day slaves.
    Human trafficking is not just a threat to the most urban 
areas of our country, but is impacting some of the most 
remotest areas as well. Traffickers are exploiting technology 
to gain access to potential victims right in their own 
communities, their own schools, and even their own homes.
    I have had the honor of working alongside more than 200 
victims of human trafficking during the course of my career as 
a law enforcement officer, alongside victim services 
professionals, and in my capacity as the executive director of 
the Just Ask Trafficking Prevention Foundation.
    Their stories are complex and heartbreaking. They have been 
exploited by boyfriends or girlfriends, those that have used 
the guise of love to manipulate them into this lifestyle. They 
have been exploited by gangs, who have learned that human 
trafficking is more profitable and less risky than other 
crimes. They have been exploited by lures of employment and 
even in some cases by their own family members.
    I would like to recognize my friend and a member of the 
Just Ask board of directors, Barbara Wilson, who is with us 
here today. Ms. Wilson is a survivor of sex trafficking here in 
the United States. Starting at the age of 12, Barbara was sex 
trafficked by her own mother, enduring abuse and exploitation 
and ultimately running away from home, only to be taken 
advantage of by many others. She became addicted to drugs and 
survived on the street for many years until she was finally 
able to pull herself out of that situation.
    Barbara is more than a survivor; she is a thriver. She has 
gone on to become a successful woman with a beautiful daughter 
and enviable career. But Barbara did not have anyone to turn to 
during her exploitation. She didn't know where to go, and 
because of that I would say that, at a minimum, we as a society 
were complicit in her exploitation.
    I am also honored to have here with me Susan Young, who 
serves as the director of our parent Coalition to End Human 
Trafficking. Susan's daughter was lured and manipulated and 
ultimately trapped by MS-13 gang members into a life of sexual 
exploitation and servitude starting at the age of 14. These 
monsters assaulted her, forced her to engage in commercial sex 
acts, and injected her with multiple drugs as a means to 
control her.
    When Susan and her husband found out and tried to 
intervene, the gang went after their 3-year-old daughter. 
Susan, her daughter, and her family have literally been to hell 
and back, although Susan might tell you that she will never 
fully return from that hell as it will live with her for the 
rest of her life. In her case, her daughter attempted to seek 
help from school officials 22 times. All 22 times, the school 
took no action to stop the abuse. We as a society were again 
complicit in the exploitation.
    There are many social determinants that lead to someone 
being drawn into a life of exploitation. Much research has been 
done identifying at-risk populations: those that come from 
disjointed home lives, those in the very broken foster care 
system, victims of prior abuse, those that are economically 
challenged or homeless, those that are bullied or have low 
self-esteem.
    So many social issues have a direct or indirect correlation 
to the pervasive exploitation of human trafficking. One social 
issue in particular is that of the opioid epidemic. Drugs have 
become inextricably linked to human trafficking. Traffickers 
use these drugs to manipulate, control, and trap victims. In 
even more disturbing cases, adults, parents will become 
addicted to these drugs and then sell their own children in 
order to fuel that addiction. One of our team members with us 
here today, George Swanberg, is a drug addiction expert and 
helps guide our understanding in developing comprehensive 
prevention programming.
    Human trafficking is truly a complex issue, from the social 
determinants that create victim vulnerabilities to addressing 
the demand for these illicit services, challenges in deploying 
effective training for frontline professionals, availability of 
resources to support victims, and the lifelong challenges these 
survivors face. Considering the tremendous impact trafficking 
has on its victims, much of which you have heard about from my 
colleagues today, I ask you, what are we doing to prevent these 
atrocities from happening in the first place?
    I believe the key to combating the epidemic of human 
trafficking is through prevention. Events like the Super Bowl 
bring a much-needed awareness to the issue. There is much hype 
surrounding sporting events with claims that human trafficking 
increases exponentially as a result. While the research is 
inconclusive, it is important that we seize these opportunities 
to educate the public on the realities of human trafficking and 
dispel the myths with a call to extend this awareness 
throughout the entire year.
    Prevention is truly possible. One young lady that I had the 
privilege of working with, a young lady by the name of Maria, 
was 17 years old when she was being drawn into trafficking. 
Someone she believed to be her boyfriend was luring her in 
through coercion and lies.
    And, fortunately, she went to school and went through a 
program, a prevention program that Just Ask had put together. 
She realized what was happening as a result of that program and 
was empowered to report to her parents. Law enforcement got 
involved, and the bad guy was arrested, and she was never 
exploited. Prevention is possible.
    This is but one example of the effective lifesaving efforts 
that our foundation and other NGOs working in the prevention 
space do on a day-to-day basis. We are just beginning to 
scratch the surface of addressing the issue of human 
trafficking. It is really going to be the next generation to 
bring about real change if we provide them with the tools and 
resources that they need.
    I am so proud to have members of the Just Ask Student 
Advisory Council here with me today: Cora, Ashna, Maya, Paige 
and Alex. These young women and men provide guidance and 
leadership to us at Just Ask to make sure our message is 
relevant and effective. And I hope that you share in my 
gratitude and pride in these leaders, who have taken a stand to 
safeguard their communities and their generation.
    On the eve of the 20th anniversary of the passing of the 
Trafficking Victims Protection Act, I call upon all of us to 
take action. Provide us working in the field with tools, 
resources, and support that we need to expand our successes and 
bring an end to human trafficking. The witness of Barbara and 
Susan here today are a testament to resiliency and strength of 
the human person, but it is also a call for us to stand up, 
with the noble goal of not one more victim. And these students 
stand ready to carry on that charge.
    I would like to thank Representative Shalala and the 
committee members for offering the opportunity to address human 
trafficking, with the sincere hope that this is the beginning 
of a meaningful conversation, not the end. We can end this if 
we would help these students, who are willing to stand up and 
do something.
    I commend you all for your commitment to safeguarding our 
communities and look forward to an ongoing partnership. If I 
may just for the record offer my daughter Emma a happy 11th 
birthday today. Thank you.
    [The statement of Mr. Woolf follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Shalala. Thank you, Mr. Woolf. And thanks for bringing 
your posse with you.
    Mr. Rodgers.

   STATEMENT OF BOB RODGERS, PRESIDENT AND CEO, STREET GRACE

    Mr. Rodgers. Yes. Madam Chair, honorable members of the 
committee, good morning. Thank you for the opportunity to be 
with you today, addressing the issue of sex trafficking. I know 
we can all agree it is a shame that organizations like these 
and Street Grace have to exist and that these conversations are 
even necessary.
    However, for Street Grace and many of the organizations in 
the fight, there is good news. We have never been more 
encouraged. Together, we are making meaningful, and we are 
making measurable progress. I am grateful for the committee's 
willingness to deal with this issue directly and at the highest 
levels to keep it in the forefront. This is how real progress 
is made.
    I have never met anyone in favor of sex trafficking, but I 
meet people every day who aren't aware of what it is and they 
are not aware that it is occurring in their neighborhoods and 
in their communities. My exposure came as a graduate university 
president, but today I have the distinct honor of serving as 
the President and CEO of Street Grace. We were launched in 2008 
as a result of the faith community coming together with a 
collaborative response for the growing issue of sex 
trafficking, child sex trafficking in Atlanta and throughout 
the State of Georgia.
    Today, we have offices in four States, and over the last 2 
years have partnered with more than 10 attorneys general around 
the country. We are led and informed by a survivor advisory 
board that puts their hands, their eyes, and their life 
experience on everything that we do.
    Since context matters, I thought it would be important for 
you to know the lens that we see the issue through. One, we are 
Christ-centered; two, we are child-focused; and, three, we are 
demand-centric. Additionally, all of our initiatives rest on at 
least one of three pillars.
    Prevention and protection of children: Every year, 
especially the last 3 years, we have had the opportunity to 
speak and present and educate 50,000 to 75,000 kids a year 
between the ages of 12 and 18. It is a remarkably powerful 
thing when you are sitting with a middle school or a high 
school student and you give language to this part of life and 
these things that can happen and you see a light bulb and a 
connection come on. We follow the old adage that the eyes can't 
see what the brain doesn't know.
    Second is policy. Street Grace is a leader in local and 
national policy recommendations that create a better framework 
for law enforcement to make arrests and for those that can be 
successfully prosecuted, also focusing on and continuing to 
create access to care for those who have been victimized by 
this crime while ensuring that the perpetrators, both the 
traffickers and the buyers of sex, who are also traffickers, 
face appropriate convictions and sentencing.
    And, third, pursuit: Including the use of artificial 
intelligence and learning chatbots, we sit here this morning, 
we have technology that is deployed in 15 cities and 8 States 
identifying bad actors who are attempting to purchase sex with 
children and disrupting those transactions.
    And let's be really clear. I don't mean to be offensive or 
disrespectful in any way, but I think it is very important that 
we call it what it is. Child sex trafficking is the exchange of 
something of value or money to rape a child. It must be 
stopped, and no child deserves this.
    I also mentioned, though, that this was an encouraging time 
to be in the fight against sex trafficking. I would like to 
briefly highlight a couple of those reasons. I am happy to 
comment further during the Q&A, if necessary. On this issue, 
around the country, we have moved from competition to a greater 
level of collaboration, where we are working together in 
support of a shared goal and cooperation. It is occurring 
between government, local, State, and Federal, NGOs, law 
enforcement, corporations, the Academy, faith communities, 
community groups, and more. Many States are benefiting from 
this now more than ever before. We just saw a very practical 
example of that earlier this year in Atlanta, when we came 
together to create a web of protection around our city as we 
hosted the Super Bowl. While we weren't perfect, it worked.
    Second, we continue to acknowledge that restorative care 
for those who have been victimized by this is critical. They 
need, as you have heard, and deserve the best and highest 
standards of medical care, mental healthcare, skills training, 
life support, education, and every other resource that we can 
possibly make available. Progress cannot be made without gold 
standard of care. There is no substitution. There is no second 
best. We have to lead in this area.
    We are doing a better job acknowledging that we will never 
end this issue by following it around and trying to put the 
broken pieces back together from those who have been impacted 
by it. While it is critical, it is not the solution. They 
deserve more, as do others, and we must look at this as the 
illegal business that it is and strategically work to dismantle 
it.
    We will never end sex trafficking one arrest, one rescue, 
one prosecution at a time. We have to scale up. The use of 
artificial intelligence, chatbots, and other technology allows 
us to keep pace with the traffickers and the tools that they 
use.
    Finally, there is a growing acceptance towards removing the 
cloak of anonymity towards the buyers of illegal sex. Laws are 
being passed around the country that allows for the arrest and 
exposure of those who are caught. This has to be included.
    For these meaningful reasons and more, we have cause for 
encouragement, and yet, as is always the case, there is more to 
do as we continue to make measurable progress and accelerate 
the rate of that progress. We must allocate additional funding 
for prevention and evidence-based demand reduction strategies.
    Historically and overwhelmingly and appropriately, funding 
has gone primarily towards restorative care. Because this is 
such a hidden crime, it requires proactive investigations. We 
need to do more to prioritize trafficking investigations among 
Federal law enforcement agencies, like the FBI and Homeland 
Security and others.
    We must include the rampant transnational and organized 
crime rings in the illicit massage industry. It is the second 
highest category of reported cases of sex trafficking in the 
United States of America. It is the safest place in the United 
States of America to purchase illegal sex. No one is better 
positioned than the Federal Government to address these large 
criminal enterprises.
    We also must look at the systemic approaches that can be 
used to cripple segments of the industry. The House took the 
lead on H.R. 2513, known as the Corporate Transparency Act. And 
while it is in the Senate now and they are considering similar 
legislation under the name the Illicit Cash Act, this could 
quite possibly help us with the stroke of a pen do more to 
dismantle the illicit massage industry in the United States of 
America overnight than all of the NGOs' combined efforts could 
do over the next 10 years. We need your leadership and your 
support.
    We need to continue to create and pass legislation that 
allows those who have been victimized by this horrible crime to 
have civil recourse against all parties who knowingly and 
financially benefited by this activity or passively allowed it 
to occur. We must continue to expand the statute of limitations 
that allows someone who has been victimized to pursue criminal 
charges and damages. And we need to continue to create 
expungement and vacatur laws, providing access and legal help 
for those who have been victimized by this. As you are probably 
aware, in recent months grant funding to survivors to provide 
legal support to help clear their criminal records so that they 
can move forward and establish careers and move on with life 
has been eliminated or dramatically reduced by this 
administration.
    We must continue to focus on restorative care solutions as 
well as evidence-based demand reduction strategies. We are 
capable of doing both. Simply put, much good is occurring, and 
there is much left to do, but the pace of progress is 
accelerating, and it seems like a tipping point could be in 
sight. Thank you.
    [The statement of Mr. Rodgers follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Shalala. Thank you, Mr. Rodgers.
    I would like to insert three documents into the record. The 
first is written testimony from HEAL Trafficking. HEAL is a 
network of 35 countries, over 3,100 trafficking survivors, and 
multidiscipline professionals that focus on education and 
training, protocol development, research, and providing direct 
services to victims of human trafficking.
    The second is a statement from the American Hotel and 
Lodging Association on their No Room for Trafficking Campaign, 
which unites the industry around a comprehensive approach to 
fight human trafficking in the hotel sector.
    And the last statement for the record is a letter from the 
National Football League on their effort to utilize Super Bowl 
as a platform to promote awareness about human trafficking.
    Without objection.
    [The information follows:]
 
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Shalala. Mr. Woodall, would you like to start the 
questioning?
    Mr. Woodall. I thank you very much, Madam Chair.
    Ms. Shalala. Excuse me. Let me acknowledge the presence of 
our colleague from Pennsylvania, Representative Scanlon.
    Mr. Woodall. Thank you, Madam Chair. For us in Atlanta, it 
was 11 days of the Super Bowl, and Street Grace was a part of a 
Federal, State, local and NGO collaborative team. We called it 
the Metro Atlanta Exploitation and Human Trafficking Task 
Force. And it resulted in those 11 days in about 169 arrests.
    Mr. Rodgers. That is right.
    Mr. Woodall. Including 26 traffickers and 34 individuals 
trying to purchase sex with minors. It also led to the rescue 
of nine adults and nine minors, I believe the youngest of which 
was 14.
    Mr. Rodgers. Right.
    Mr. Woodall. That is a record of enforcement that I hope 
Miami does not match, because I hope the problem is not 
escalating. I hope the tipping point that Mr. Rodgers talked 
about is, in fact, among us.
    But I want to talk about what the four corners of the 
debate are. Mr. Rodgers, you mentioned civil recourse. And 
certainly getting the lawyers involved is--money talks. But I 
heard Mr. Woolf's testimony. I believe 22 times a victim went 
to the local school system seeking help, did not find help.
    When you talk about something as deliberately heavy-handed 
as civil recourse against folks who passively allow abuse to 
occur, do you have something as serious as allowing a lawsuit 
against that local school system in order to promote that, 
lawsuits against doctors who passively allow that to occur? Is 
that the level of necessity that we have come to?
    Mr. Rodgers. No, I can't speak specifically to that, but in 
our impression of what we are looking at, that is not the case. 
We are looking for people who--the key word for us is 
``knowingly'' and ``benefited from.''
    So what we are talking about is an example over and over 
again that you can run across where the front desk clerk or the 
manager at a local motel has been allowing this to occur on 
property while they have either been receiving cash, you know, 
under the table or they have just passively allowed it to occur 
and not wanting to get involved. So it is primarily targeting 
those who, A, knowingly and have financially benefited from.
    Mr. Woodall. And I know you were talking about massage 
parlors or some of the research and the reports that are coming 
out locally. Are those large criminal enterprises? Are we going 
to find 15 or 20 of those massage parlors connected? Are those 
individual smaller sex trafficking shops, in your experience?
    Mr. Rodgers. The recent research that was done by Polaris I 
believe earlier this year/late last year indicated that there 
were about 9,000-plus illicit massage businesses around the 
United States of America, accounting for about $2.5 billion to 
$3 billion in annual revenue. Those are overwhelmingly owned by 
more--the individual owner, whoever that might be, owns more 
than one. And they also have likely two of--at least one of 
three businesses: A dry cleaners, a laundromat, a restaurant or 
a nail salon, and that is where they funnel and traffic the 
illegal money that comes from--the majority of them are run by 
organized crime in some way, shape or form, from our 
experience.
    Mr. Woodall. Doctor, I wanted to ask on Dr. Burgess' 
behalf, you heard him express his concerns about giving that 
minor time to be alone with a provider to make that report. Do 
you have, so we can get that on the record, a response to his 
very serious concern?
    Ms. Potter. Absolutely. When Representative Burgess was 
speaking, I was thinking about his story as a missed 
opportunity. It was a missed opportunity in healthcare. And I 
am happy to say that most healthcare professionals, a lot of 
service industries have licensed professionals. And State 
legislatures are working hard to mandate continuing education 
on human trafficking. Education and awareness is the key. I 
have been doing this for 6 years, and it is amazing to me how 
many people do not understand what human trafficking is and 
what to do if it is in front of them.
    Doctors are not equipped to care for the survivors that we 
are seeing today. We don't know best practices. We don't know 
best approaches. I have sent a patient to the emergency room at 
2 in the morning and called the ER to speak to the attending 
physician about my case that was in the ER. And the attending 
physician says: Could you stay on the phone, because I want to 
talk to you about a case that I had a couple days ago that I 
thought could have been a trafficking victim, and I am not sure 
what to say because if I bring it up, they will run. I am not 
sure what to do and who to refer to.
    HEAL Trafficking, the memo that was put into, she has an 
online website where they do massive education. There are 
protocols online that can be downloaded about what ERs can do 
to increase the awareness.
    We talked a little bit about trauma-informed care. Trauma-
informed care, survivor-informed care, what I call human 
trafficking-informed care. In Massachusetts, for example, they 
are working at Brigham and Women's to make the entire hospital 
trauma-informed. Because human trafficking is hidden in plain 
sight, it is not like you know who the victims are. So it is 
the words that you use and the language that you use as a 
provider to let the patient feel safe.
    We are all trained to isolate the patient. There are tricks 
that you can use. If the chaperone won't leave them, you send 
the patient for an x-ray that is not really ordered and get 
them away from the trafficker, and then you put a note in the 
bathroom and ask them for a sample in the bathroom. So we are 
learning all of these tricks about how to educate healthcare 
professionals, but educate the world.
    Everyone in this room today, all of the stories that you 
have heard, we are counting on you to go back to your dinner 
parties, to go back to your families and tell the stories that 
you have heard today so that we increase awareness and 
education and everybody starts to think about the victims and 
if they see something they call the human trafficking hotline.
    Mr. Woodall. We do spend a lot of time talking about 
response. During the Super Bowl, every billboard in Atlanta was 
``see something, say something,'' not in a terrorist context 
but in a human trafficking context. It is easier to get dollars 
out of Congress for a response, because if you see a problem 
everybody wants to solve that problem.
    What I am hoping you can tell me, to your point, Mr. 
Rodgers, to so many of your points, response is critical and 
must happen, but prevention would have been better. What is the 
best dollar that we spend so that you don't have a prosecution 
in your courtroom, so that Fairfax County isn't involved in 
making arrests, so that we don't get the negative policy 
feedback loop. It may be different for each of you, but if we 
know, what is the best dollar we spend on prevention?
    Ms. Fernandez Rundle. Thank you. That is such a complicated 
question with a very broad answer, but I think that what you 
are hearing today is that it is not just one area. Prevention 
is critical, but prevention happens at different intersections, 
right?
    So it can be at the home level. It can be at the 
neighborhood level. It can be in your doctor's office. It could 
be your first arrest. It could be the arrest of somebody else. 
There are so many intersections that we need to prevent what is 
happening at each intersection. So it is really all of the 
above.
    And one of the things that is so challenging about this 
area is that it is so complex. And, for instance, neuroscience 
today is teaching me and I think a lot of us that what we are 
dealing with is something that is so neurologically different 
from what we ever learned about as professionals or had 
witnessed as professionals. And so now we are all trying to 
build some trauma-informed responses at all those different 
intersections so that we can be very preventive, that we can be 
also very punitive with the traffickers.
    So what Mr. Rodgers, for instance, was describing about 
massage parlors, you know, that is about money also. But, you 
know, what he was talking about is we now know that trauma is 
so deep and hard for these victims to tell their stories, or 
like I think one of them said, they are not lying. We now know, 
because of the new neuroscience that is only, what, like 20 
years new that we are learning about the brain, we now 
understand they are not lying. So we don't have to rely on 
them, because they are going to be cross-examined and they are 
going to be called a liar, and Mom's not going to believe them 
and all those horrible things. But what we now can do is we can 
look at money laundering, for instance.
    So what Mr. Rodgers was talking about is pertinent I think 
to this discussion, because we know that we have to take care 
of that victim, but at the same time we can go after the 
traffickers in the massage parlors and the dry cleaners if, in 
fact, that is where they are laundering their money from those 
illegal acts. That was a long answer, but----
    Mr. Woodall. So often when folks say it is a complex 
question, what that leads me to conclude is that, yes, Miami-
Dade is going to have to try something, Gwinnett County is 
going to try something different, Fairfax is going to try 
something different; but I am going to be stuck, as a Federal 
legislator, responding with that block grant that lets you use 
it as you see fit.
    Have you seen, Jean, a place that we have underfunded that 
you can point to?
    Ms. Bruggeman. Well, I think there are many--as you stated, 
I think there are many levels to what would be effective 
prevention. I think that there is actually, sort of taking a 
step back even further, going further upstream is where the 
real work hasn't started. And that involves comprehensive 
immigration reform. That involves looking at guest worker visas 
and including visa portability for workers.
    What we see is that a majority of labor trafficking victims 
enter on a legal visa that was given to them by the U.S. 
Government that tied them to an employer, who then abused them 
and used the U.S. legal system to entrap them.
    So when we change the system that the traffickers are using 
to exploit the workers, then we protect the workers. When we 
make housing affordable across the country, what we see is that 
a lot of people who are entrapped in sex trafficking engaged 
first in sex work in order to pay their rent and pay their 
medical bills. If they could just pay their rent because 
housing was affordable, then they wouldn't be put in a 
desperate situation where they were willing to take employment 
that was dangerous and difficult.
    So I think it is actually the fundamentals of keeping our 
community safe. And when we keep our community safe from all 
sorts of violence and exploitation, that is when we truly 
protect them from human trafficking as well. It is not as 
pinpointed, so it is much more difficult to get through 
Congress, and it is the real work that needs to be done, 
because I think that is the work that would address the 
problems that all of us are seeing where people are being put 
at risk by systems.
    Mr. Woolf also mentioned the foster care system and the 
challenges. What we see is that time and time again our youth 
are running away from the foster care system and would prefer 
to trade sex on the street than to go back to the foster care 
system. Until we fix that, the kids keep running away from it 
and into the arms of anyone who will take them. So that is on 
us to fix that system I think, as Mr. Woolf pointed out.
    Ms. Fernandez Rundle. If I may, can I piggyback on that 
issue, the foster care system? About 45 percent of our victims, 
our experience in Miami, come from the foster care system.
    So, when you are talking about prevention, one of the areas 
that we can have some well-developed preventative strategies 
would be when they are really, really young in the home, and we 
start to see that there are dynamics that aren't working, and 
they are ending up in our foster care system, whether it is 
temporarily or a couple weekends, or then it goes to a couple 
weeks and then a couple months. And they tend to be runaways, 
like you say, and throwaways. A lot of them tend to be kids 
that nobody wants except these traffickers want them.
    So, you know, that is another area I just wanted to 
piggyback on on her talking about the foster care system.
    Mr. Woodall. Doctor.
    Ms. Potter. I just want to also add, that is about half of 
the population, but many of my patients are coming from regular 
suburbia, middle class homes, and they are being lured because 
they want things. And the traffickers entice them. They will 
trade sex for phones, things like that.
    And the internet, the internet is a big problem. We were 
speaking in Palm Beach, and after we presented some work, a 
judge raised his hand, and he said: That was my granddaughter, 
right?
    So they were lured on the internet. So prevention, 
educating the youth, you know, mandating education about how to 
stay safe in schools is critical.
    Mr. Woodall. Mr. Woolf.
    Mr. Woolf. Mr. Woodall, yes, sir. If I can just respond and 
add onto what Dr. Potter pointed out. And I think that if you 
are asking how do we best use our dollars the right way, I 
think absolutely, it is educating our young people.
    Even though we know that all ages are targeted by 
traffickers, if we look at it in the sense of inoculating 
against a particular threat, right, where we can give them that 
education early on. I have worked with so many victims that 
came and said, I just didn't know. I didn't know what I was 
getting myself into, or I didn't know how to describe what was 
happening to me. I didn't know who to turn to for help.
    And we have got to put those skills and resources and give 
those tools to our young people so that they are empowered to 
be able to stand up and protect themselves and their peers. 
Education is cheap. I commend Florida for the steps that they 
have taken to mandate it in their classrooms.
    But this is something that is called on by the Department 
of Education, Health and Human Services has asked for this, and 
yet we are not seeing it get the traction. And many communities 
around the country say: Well, we haven't had that many cases, 
so do we really need to make this a priority?
    And I think the answer is yes, and that needs to come from 
your leadership.
    Mr. Rodgers. Just one quick comment. I agree with 
everything that my colleagues have said. And so this is not an 
agreement. If it was my dollar, I would figure out how to 
divide it amongst education and demand reduction, evidence-
based demand reduction. When a buyer of sex has to pause 
because there is a 50/50 chance that they are going to get 
caught, it stops. But when there is a 1 percent chance, ``that 
is never going to be me.''
    Mr. Woodall. Thank you all. Thank you, Madam Chair.
    Ms. Shalala. Thank you.
    Representative Scanlon.
    Ms. Scanlon. Thank you, Chairwoman Shalala, for convening 
this subcommittee hearing today, and special thanks to all of 
you for coming.
    This is actually something that I had an interest in before 
coming here for a couple reasons. First off, my district in 
southeastern Pennsylvania contains all five of Philadelphia's 
professional sports teams as well as a major international 
airport, an East Coast port, Amtrak, regional rail, a large 
stretch of I-95. So a lot of infrastructure that can be used to 
facilitate human trafficking.
    And the other reason I was interested is because before 
coming to Congress, I was head of a pro bono program for a 
large law firm where we provided legal services to a lot of 
underserved populations, and human victims or survivors of 
human trafficking were certainly a large part of that.
    We represented victims from around the world who have been 
lured to the U.S. with promises of employment. We represented 
an order of Catholic nuns who repurposed their convent to 
become a halfway house or a place of refuge for victims. And we 
represented foster care youth and other people who our social 
safety net had failed. So, certainly, I am aware of the 
connections and look forward to your helping us figure out what 
we can do about it.
    And I am also grateful to Mr. Woodall, because I was aware 
that Atlanta had really stepped up its game. I had seen a lot 
of the materials in the airport there.
    But with regards to the airport, we have heard--airports, 
we have heard stories from time to time passengers or people in 
the air industry being able to disrupt trafficking. And I know 
that there is some Federal legislation or regulation that 
requires some training and posting of signs.
    But, you know, we have seen what happens when there is 
mandatory training or posting of signs. What can we do to step 
it up? And I think, Ms. Fernandez Rundle, you might have 
something on that.
    Ms. Fernandez Rundle. Yes, thank you very much for asking 
that question. I think that anything that we can do in 
education and awareness is always going to get us much further 
than any reaction, right?
    So I think that all the mandatory training that we have now 
passed in Florida, that you have mandated at the Federal level, 
is all having an impact. I mean, just, you know, somebody 
pointed out to me 10 years ago when the Super Bowl was in 
Miami, 10 years ago, the NFL wasn't talking about human 
trafficking. They are talking about human trafficking. And I am 
not saying we don't have a long way to go, we do. But just even 
talking about the issue. And everything the Federal Government 
has done, that you have done, and the State government has done 
to constantly every year pass legislation and some funding and 
appropriations, this says: This matters, and we want you, hotel 
industry, we want you, the education system, and we want you to 
be talking about training, have curriculums built, medical 
system.
    All of the medical professionals in Miami are incredible. 
They all want to know what are the protocols? What are the 
standards of care? How do we get involved? What are we going to 
do when they all come to our emergency rooms and urgent care 
centers?
    So I think that kind of conversation constantly, and even 
though there are a lot of different professionals working at 
it, if we are all really focused on it together as an 
infrastructure, I think we have to say to ourselves, we are 
making a difference and we can make a difference. And we need 
to be super supportive of each other, because if we all stay in 
our own silos, we are not going to get it done. We have to get 
into each other's lanes, and we have to really work with each 
other and around each other and include each other and embrace 
each other.
    So I hope that answers your question.
    Ms. Scanlon. Jean.
    Ms. Bruggeman. Yeah, I would just like to add I think it is 
also important what we have seen is some really amazing work 
done by community-based organizations across the country. For 
example, in my written testimony, I talked about Damayan, a 
Filipino-based worker collective that works to educate Filipino 
domestic workers throughout New York.
    What we see, especially in immigrant communities that are 
very vulnerable to different forms of human trafficking, is 
that general public information campaigns aren't successful at 
reaching those workers, especially domestic workers who are 
isolated in their homes. And so having community-based 
organizations educate using peer education methods.
    In Florida, the Coalition of Immokalee Workers has an 
amazing program that educates agricultural workers in the 
fields in Florida using a peer education model with an 
opportunity to report violations that has virtually eliminated 
labor trafficking in the tomato fields in Florida.
    So I think it is also, you know--as Mr. Woolf was talking 
about the importance of peer education and school-based 
education and the peer educators that he uses in his own 
program, in the same way with other communities that are at 
high risk, really working within those communities to provide 
culturally relevant, linguistically appropriate direct contact 
and information. Building that trust, as we have heard about 
this morning, is critically important.
    Ms. Scanlon. I am a little curious about how the impact of 
the administration's hardline enforcement or seeking out of 
immigrants for deportation, et cetera, how that has impacted 
human trafficking, because certainly what I have seen in the 
past when people have been lured to the U.S. with promises of 
employment or if they are here with any question about their 
legal status, then that becomes an instrument of control that 
people are profiting off of, that they are basically held in 
servitude because they are afraid that they are going to be 
arrested.
    So what can we do to disrupt our government becoming the 
enabler of these people who are putting others in slavery?
    Ms. Bruggeman. Yeah, that is a current challenge right now. 
What we are seeing is that immigrant victims are more hesitant 
to come forward. Those who come forward to local service 
providers, the legal service providers in our network report 
that the immigrant victims who will come and tell them about 
their situation will not report to law enforcement. They even 
fear right now filing for immigration relief, the T visa that 
Congress created.
    Now the new policies of the administration have made the T 
visa harder to get, and they have extended a memo which then 
threatens with deportation anyone who applies for a T visa and 
whose application is found lacking in any way or they are 
unable to respond to any questions for whatever reason. They 
will be subject to immediate deportation if their application 
is denied, in a complete reversal of policy.
    So this is terrifying the immigrant community. Our members 
have reported that victims have come forward to them and said: 
I will go back to the trafficker. It is not safe for me to come 
away right now.
    What can we do to disrupt that? I think we have to change 
these policies. We have to reach out to our immigrant 
communities and tell them that we know that they are 
hardworking, honest people who are trying very hard to support 
their families and loved ones, just like everyone else. And we 
have to protect them from these really painful and abusive 
practices.
    Ms. Scanlon. Even before the recent administration policy, 
there was an issue with the T visas and the U visas that do 
provide a path to legal entry, that they were capped. I mean, 
we helped many people apply for these visas, and the wait time 
was now moving into years, and 7 years, 8 years, 9 years. So 
even people who were trying to comply with our laws were unable 
to, and so, therefore, they remained in this limbo and subject 
to deportation.
    Is that your experience as well?
    Ms. Bruggeman. Yes. That continues to be a problem. I think 
most Americans think that there is a legal path to citizenship 
for anyone who works hard and tries and complies with the law, 
and that is simply untrue. The U visa cap has been reached 
every year, and the wait list now to even be considered for 
approval is over 10 years.
    So that is something Congress could certainly look into, 
raising that cap to allow more U visas each year. U visas are 
for victims of a wide variety of crimes and requires 
certification from law enforcement.
    So a U visa is only eligible, is only available to someone 
who has come forward and been helpful to a law enforcement 
investigation or prosecution and the law enforcement agency, on 
their own accord with no requirement, has certified that that 
is true. We have law enforcement agencies across the U.S. who 
choose not to certify even when victims of violence have 
assisted in an investigation or prosecution. So it is a very 
high standard. It is an incredibly high bar, and we are limited 
by numbers.
    The T visa has a lower ceiling, but it has never been 
reached. So the problem with the T visa is not that we are 
running out of T visas. It is that the adjudication process, 
which used to be completed within 6 to 9 months, if you look at 
the historical averages that USCIS has published online, is now 
over 2 years. For that application, we are talking about less 
than a thousand applications a year. They simply made changes 
to their adjudication process to slow down adjudications of 
visas, including the T visa, which leaves then victims of 
trafficking who have come forward, who have put their lives at 
risk, who have complied with every request of our government in 
limbo for over 2 years and then with the threat of deportation 
hanging over their head.
    So those things together are leading to a place where 
people are unwilling to come forward at this time.
    So those are all policy changes. A legislative change it is 
not needed there. Perhaps some oversight into why the 
Department of Homeland Security has chosen to make these policy 
changes specifically against this population might be helpful.
    Ms. Scanlon. Thank you. One more thing for Mr. Rodgers.
    You mentioned the fact--this is more of a domestic 
enforcement issue--that funding has been withdrawn to help 
survivors of human trafficking expunge their record so that 
they can move on from their lives. Can you talk a little bit 
about that?
    Mr. Rodgers. There were some grants that were available 
that would allow folks who have come out of the life and been 
rescued to it to be able to apply for legal support for funding 
that would allow them legal support to expunge their records, 
to erase criminal, you know, charges that were against them 
while this was occurring and they were being victimized, so 
that they could more swiftly move forward and earn a career, 
get a job, and transition into a way of supporting and caring 
for themselves.
    That is probably, at least in our experience, outside of 
the mental health issue of it that is an ongoing basis, 
probably the single greatest challenge that survivors of 
trafficking face when they are trying to stand on their own two 
feet and move forward, you know, is the financial ability to 
take care and provide.
    Ms. Shalala. Let me ask, Ms. Fernandez Rundle, how you 
handle that kind of thing?
    Ms. Fernandez Rundle. Actually, Florida has the ability in 
State law to move to vacate, a vacatur, in other words, to go 
in and take that record and eliminate it for that person. So we 
do that as an office. If we feel it is appropriate and the 
victim was coerced or a lot of the crimes occurred--robbery is 
a big one. They will steal from the person that is buying them, 
and they might get charged with robbery or theft. And then, as 
we understand that case better, we then have the ability to go 
with that victim into court and change the record, really 
eliminate it from the record.
    Ms. Scanlon. Am I correct that some of the funding for that 
is in the VAWA Act, which hasn't been reauthorized. Is that 
correct?
    Mr. Rodgers. That is my understanding, yes.
    Ms. Scanlon. That is Violence Against Women Act that the 
House passed months ago. Okay.
    Ms. Shalala. Absolutely.
    Ms. Scanlon. I yield back.
    Ms. Shalala. Kathy Fernandez Rundle, let me ask you, 
because you are the prosecutor here, how you build a case, 
because everybody has talked about the trust of the victim in 
terms of providing services, but you provide some services as 
part of your efforts to build a case. And you mentioned that 
sometimes you have to build the case without the victim.
    Ms. Fernandez Rundle. That is correct. Thank you for asking 
that question, because it is really the key component to 
successfully rescuing a victim and having a successful 
prosecution.
    So what we have done, our experience has been working is 
that the person that builds that initial trust--and I think you 
have met them, because you have been out to our center--are 
these incredible angels. I don't know where they get the depth 
of passion to do it. But they are the ones who go out 3 o'clock 
in the morning, and they build a bond with that victim right 
then and there, and brings them into our center, where--we are 
not a shelter. We are an advocacy center.
    And they can just relax for a few minutes and think about 
their experience, think about their rescue. And the bond is 
then with that care coordinator. And that is not a cold police 
station. It is not somebody in uniform necessarily, right? We 
might send an investigator out there.
    And then, with that, once we get them into all the services 
that we have talked about here, we are then able, not always, 
but many times we are able to convince that victim to move 
forward with the prosecution. Oftentimes, they run. You could 
start a prosecution and they change on you.
    So that is why in this packet you will see, I think it is 
like page 15 of our PowerPoint that we submitted, we look at 
everything. We go to digital evidence, so that we don't have to 
retraumatize that victim again, because you have heard us all 
say this. We now know neurologically that when you are relying 
on that victim, lots of things are going to happen. They could 
run on you. They could lie to you. They could be ashamed. They 
could be all of the above. And so they are not going to come 
forward.
    So what we have to do, as prosecutors and lawyers, and 
other people in the system like you were talking about, how do 
you ask these questions of them? We look to digital evidence. 
We look at phone records, text messages, hotel records, massage 
parlors, their financial records. We even now have strip clubs 
and gentlemen's clubs that are coming to us, as a prosecutors' 
office, saying: How can we help you do some undercover 
operations within our organization?
    So I don't know if that answers your question, but it is a 
very--we found a pathway that is working for us. And one of the 
things I think I heard Mr. Woodall talking about is, what is 
the takeaway here? One of the things that I think we would all 
like is some research, right, that would tell us are our 
strategies working? What are the best evidence-based strategies 
for prevention, for treatment, for medical services, for trauma 
treatment, for prosecution, for immigration? What does that 
look like? What do we need the takeaways?
    And I think the Federal Government can be very helpful to 
us in looking at some of the different pockets. I mean, you 
know them better than I do, but, HHS and Office Against 
Violence Against Women. And there are a whole host of different 
places that you could help us also understand better what are 
the strategies that are working, what strategies should we be 
implementing that can work. And so that would be a wonderful 
place that you could really be a contributing major player in 
changing this landscape.
    Ms. Shalala. Mr. McGovern.
    Mr. McGovern. First of all, thank you. I apologize. I had 
to leave briefly to testify before another committee.
    But, as I mentioned before, I co-chair the Tom Lantos Human 
Rights Commission. We did a hearing on trafficking a few years 
ago. And, you know, many of the same challenges that were 
highlighted a few years ago still exist today. You know, this 
is a complicated issue. It is more than about a block grant, 
right? It is more than about education and awareness. It is 
more than about better training doctors. It is more than about, 
you know, a lot of these things that we have all talked about. 
More than a study even, right? I mean, although those are all 
very, very important.
    But there are systemic challenges that persist that make it 
very, very difficult. We talked about immigration. I mean, I 
hear over and over. If you are being illegally trafficked, you 
know, sex trafficked or you are being exploited for labor and 
you are an undocumented immigrant, I mean, you don't come 
forward because you will be revictimized again, you know. You 
will be deported. And we do not have a system right now, no 
matter how we want to talk about it, that is at all 
compassionate when it comes to people who find themselves in 
that situation.
    The same with people who are trafficked in sex. You know, 
not just undocumented immigrants but, I mean, you know, a very 
few years ago people were saying that, you know, that the 
people who were being arrested and prosecuted, you know, were 
the ones who were being caught in the act and not the person 
who was exploiting them. And yeah, you can--and I think there 
are cases where you can vacate convictions, but those are 
tough, right? And so, you know, if you don't have access to 
affordable housing and you have a kid or two kids you are 
trying to support, and you get arrested and then you have a 
record, who is going to hire you, right? I mean, and it is 
the--and these are--I know that they are difficult challenges 
to try to overcome, but there are systemic problems that need 
to be overcome. You talked about the affordability of housing 
and decent work that pays a livable wage.
    So we also have to be mindful of that, that, you know, 
passing an additional block grant in and of itself is not going 
to solve this problem. It may help. It may provide some relief. 
And even the education and awareness program, I mean, you know, 
will be helpful, but, you know, we need to change our system's 
approach to this. Otherwise, it is going to continue to happen, 
because victims don't want to be revictimized, and they 
shouldn't be, I mean.
    And so I appreciate all of your testimony here, and I think 
there are some concrete suggestions that you have passed on to 
us that I think we can pursue legislatively. But we have to 
open our eyes a little wider up here too and not be satisfied 
that, if we do one component here, that somehow we have solved 
the problem.
    We have been talking about this issue for a long time, and 
it is still a challenge. But I appreciate very much you coming 
to the Rules Committee, and I learned a lot here today.
    So thank you. I yield back.
    Ms. Shalala. Thank you. I am going to yield to Mr. 
Hastings. I have to go to the floor to----
    Ms. Fernandez Rundle. Good place to go.
    Mr. Hastings [presiding]. One of the things that happens 
when we schedule things, you don't know what is going to 
overtake it.
    Mr. Woolf, I apologize to you for having been out of the 
room during your testimony, but after I watched the Heat beat 
the Atlanta Hawks last night, I did read--in overtime I might 
add. I did read most of your testimony, and one thing that 
jumped out at me that has not been said here this morning, and 
that is that the life expectancy of a person that is trafficked 
is 7 years. That should ring a bell throughout the community 
that is trying to do something about this.
    In addition, the implication of homelessness. I have been a 
proud $25 contributor to Covenant House for well on 40 years, 
and the same for Women in Distress. That is another area that 
needs to be developed, for those of you that are in the 
nonprofit sector, is getting smaller donors who may very well 
be continuously interested in the problem.
    The other thing that we haven't talked about, probably 
won't have the time to, is the implication of drugs writ large, 
not just opioids, which is the fashion of the day, but 
prescription drugs. I learned when I was a juvenile judge from 
a young man that all he had to do--he was handsome as all get-
out. He could go in somebody's house and use the bathroom and 
come out with drugs that he could sell on Fort Lauderdale 
Beach. It was kind of interesting.
    And toward that end, I want to make two other statements, 
and then if you all would wrap up with any comment that you may 
offer to us and also anything that you did bring in writing. We 
are making a record, and we will provide that to you as well as 
to our colleagues here.
    I don't mean this to be offensive, but when I was in the 
sixth grade in Altamonte Springs, Florida, at a Rosenwald 
Elementary School, which was four schools. The boys and girls 
were separated when we went to use outdoor facilities, but in 
Mayday activities and physical education, we were so few, and 
so the principals and teachers would bring us together.
    I say this as a proponent of early education. And what I 
mean early, I mean early education. We ignore what our children 
see and hear a lot, and sex becomes a taboo subject. Most of us 
men in this room learned about sex not so much from our daddies 
but in the streets. But in that area, two words that I have 
never forgotten came up one day in the boys and girls physical 
education class with Mr. Hamilton. One was pediculosis and the 
other was dysmenorrhea. That is from sixth grade. And you 
wouldn't think that far back in the forties that teachers were 
mindful of illuminating children about crabs and painful 
menstruation of women.
    The other thing is a direct dig at men, who need the 
greatest amount of education, particularly young men. And by 
young, I am talking about sixth grade, the same as myself, and 
even below. The great majority of the trafficking that you all 
see and that we see, the pimps, the gangbangers usually are men 
and some women associated as decoys and involved with them for 
a year. And when the family thing enters, as Dr. Burgess talks 
about, that becomes an added tragedy.
    But I am a full proponent of Florida's program and an 
advocate nationwide. Ms. Scanlon and I on another jag unrelated 
to trafficking, we believe that we need to restore teaching of 
civics in our schools. And it is just regrettable what we have 
left on the table. I might add I think television in a larger 
way could do more to help us in this arena.
    But you all have been illuminating, and it is deeply 
appreciated, but I would appreciate it if either or all of you 
would address the implication of drugs and how that impacts 
this awesome thing that we are confronted with called human 
trafficking.
    Ms. Fernandez Rundle. Yes. Thank you for asking that 
question, because drugs is a key component of enabling the 
trafficking to occur.
    A second way that it is, is that oftentimes we find the 
traffickers are using the victims to sell drugs during the day, 
and then they are forcing them at night to sell their bodies. 
So they are so integrally intertwined that one of the things we 
try to do in law enforcement from that level, because that is 
what we are trying to do is be proactive, is actually find 
means and ways to follow the drugs, is one of the options for 
us to get to the victims.
    So I am glad you brought that up to make that clear. And, 
also, sometimes the law enforcement funding dollars will follow 
drugs where they might not follow human trafficking per se.
    So, when we combine those two and we make our case clear 
that they are intertwined and interwoven with each other and 
the crime, it also assists law enforcement in those kind of 
sting operations or undercover operations, and it takes them to 
broader ways to investigate.
    Mr. Hastings. Mr. Woodall, do you have anything additional?
    Mr. Woodall. We talked about early intervention. I did want 
to enter into the record, Mr. Chairman, the State Department, 
as part of its Office to Monitor and Combat Trafficking in 
Persons, has given the University of Georgia a grant to 
continue some work that it is doing in the Sierra Leone at the 
very front end of the trafficking chain. I just want to make 
that part of the record.
    Mr. Hastings. Without objection. It has been mentioned that 
all over the place in any field that data drives policy. And, 
regrettably, there was mention here of some jurisdictions that 
don't even want to keep statistics.
    Believe it or not, what I found on the international level, 
particularly in the 57 countries of the Helsinki Commission, 
that a lot of them don't want to keep data in this arena. And I 
won't mention their names. Russia. It is amazing how reluctant 
they are.
    I also would like to compliment one of my colleagues that 
has been a longtime leader in this arena, and that is Chris 
Smith from New Jersey. All of you may have come across his name 
in a variety of activities, but he has been substantially 
involved in this arena, perhaps more than any of us.
    Final statement, Ms. Bruggeman.
    Ms. Bruggeman. Thank you. I think it is important to keep 
in mind, as you just pointed out, the importance of data and 
the collection of data. And I think it is also important to 
keep it into a helpful context. Crimes like human trafficking, 
just like child abuse, sexual abuse, domestic violence, are 
going to be undercounted and underreported, regardless of our 
best efforts.
    And so I think we have to be very creative in the way that 
we look at the data and not rely on only our law enforcement 
data or prosecution data. Also look at data from service 
providers regarding the number of survivors that they are 
seeing and interacting with. Some research studies that can 
show us examples of, you know, deep prevalence studies in one 
location that can be used to extrapolate and estimate the 
prevalence and the types and needs of the survivors.
    And, also, following on a comment that was made previously 
about the need for evidence-based practice, one of the comments 
I included in my written testimony is that, in the domestic 
violence and sexual violence fields, we have nationwide 
research centers and we have statewide coalitions that are 
funded primarily through HHS and CDC that guide us with best 
practices, with policies and procedures, and with advocating on 
behalf of survivors.
    And that is something that remains missing in the human 
trafficking field. We don't have a similar dedicated space in 
which we can invest in those best practices and then promulgate 
them forward to help States and localities. And I think they 
struggle when finding which are the right partners that we 
should be working with? What are the best practices in service 
provision? How do we know who is the right partner for us to 
work with? What are our investigatory practices? How can we 
rely collaboratively?
    So I would say looking really strategically at how to 
invest in building that analysis of evidence-based practices 
across the human trafficking field is a critical step forward. 
Thank you.
    Mr. Hastings. Ms. Fernandez Rundle.
    Ms. Fernandez Rundle. Yes, thank you. And to underscore 
that point, because I think we did make that point earlier. 
That is such a key component, moving forward, to really develop 
evidence-based--research on evidence-based strategies, what 
works, what doesn't work.
    And then you need the therapy piece. Now that we have 
neurological new science, right, neuroscience that can guide 
us, what kinds of therapies are we implementing and employing 
for a lot of these victims? And for those of us that are 
professionals, how do you ask a question? You know, how do you 
get them to tell you what happened to them without traumatizing 
them? So there is a lot of work to be done in that field.
    I also want to say that, you know, from where we sit in 
Miami, in any event--and I know your DA in Fulton County, I 
spoke with him as well--it needs collaboration. So wherever you 
take the Federal Government, you want to take it to a community 
that is collaborative, where people aren't in their own lanes, 
but instead they are working with each other. They are 
collaborating. They are sharing information.
    I can tell you I could not do my job in protecting my 
community if I didn't have THRIVE Clinic and Project Phoenix 
for my homeless victims. There are just so many not-for-
profits, and law enforcement has 35 police departments. So, if 
we are not all working together and helping each other, then we 
are not going to be able to combat this huge complex problem.
    The other thing I would say about that is it is big and it 
is complex and we have all talked about that, but if we can 
save one child at a time, that is okay. That is okay to reach 
for that.
    And then, in conclusion, what I would ask in furtherance 
is, you know, you talked about data, Chairman Hastings. And I 
always listen to you, because you are always so wise. One of 
the things we don't have in local law enforcement, okay, is we 
don't have a database of sharing intelligence information.
    So one of the things we find is Miami is a destination 
city. Orlando is. You know, Las Vegas is. And so they do this 
circuit. And we may not know what is going on in Las Vegas, our 
local law enforcement, and they don't know what is going on 
with us. Why aren't we tracking those bad guys? Why don't we 
have that intel about who they are and what their patterns and 
what kinds of victims are they preying on and so on and so 
forth. That could be something that you could help us develop.
    And last but not least, I would say that in so many 
communities the prosecutor can be galvanizing and help, 
especially if it is one that has a lot of different police 
departments and local and Federal law enforcement. If we can 
empower and give resources to local prosecutors' offices, I 
think that would go a long way to helping the whole community, 
because sometimes that is what they need.
    They need that courtroom piece, that law enforcement piece, 
that connected care coordinator piece that will get them to 
great places like THRIVE. And so I think that would be an 
important thing that you could sort of be a leader on in 
getting a message out to all of the communities that have 
prosecutors, both Federal and State, that you want them to have 
these kinds of units.
    And, again, I thank you so much for hosting this today, and 
I hope that if you want to call on us individually at any time, 
I hope that you will. Thank you.
    Mr. Hastings. Dr. Potter, I did read late some of your 
stuff too. And two things jumped out at me, and that was the 
broken bone and the fact that many of these people, for obvious 
reasons, are not taken to the dentist. And I can't imagine 
anything worse than having a toothache and not being able to be 
treated. There was so much more, but just those things jumped 
out at me.
    Dr. Potter.
    Ms. Potter. So just imagine when you are trying to 
reengineer your life and get your life back on track. All of us 
have been sick. When you are sick and you don't feel good, you 
can't do much more, right?
    Mr. Hastings. Right.
    Ms. Potter. So thank you for the opportunity to summarize 
what we have heard today. And I spent a lot of time traveling 
around the country, educating other health professionals and, 
honestly, anyone that will listen.
    And I would like to say that what we heard today about 
prevention and identifying victims is what I call part one, and 
what I call part two is the aftercare. And I came today 
specifically to speak to you about the aftercare.
    I hope that you have a sense of what a great partnership we 
have with law enforcement, Homeland Security, our State and 
Federal prosecutors and the major tertiary care center and the 
health systems that we have in south Florida. We work hand in 
hand on this issue, and I hope that was clear to all of you 
today. Almost all of our referrals and the reason why I am here 
today is because of law enforcement. They came to me with 
survivors and said: We need your help.
    And as Ms. Rundle pointed out, they come with nothing, just 
the clothes on their back. They have no friends. They have no 
family. They have no one. And in terms of what they need, we 
know that there is a lot of work to do, a lot of evidence-based 
medicine that needs to be done to develop a standard of care, 
primarily for the behavioral healthcare needs that they have.
    The physical stuff is pretty straightforward. We just need 
access to multispecialties. They have head injuries. I have a 
patient right now with amnesia, because she was beat with the 
gun. And so neurology and all of that technology we have, and 
we can help them if we have models of care in place.
    The needs of the survivors are very complex, in terms of 
healthcare and behavioral health. And most of them have been 
getting their episodic healthcare in emergency rooms, and it is 
not effective, and it is at great financial cost. We have just 
done research on our emergency room, looking at the victims and 
how often they access the ER before and after THRIVE, and we 
have reduced the emergency room visits by 50 percent. And it is 
a huge cost saving to the health system by just establishing a 
primary care clinic.
    When you talk about ``if you had a dollar, how would you 
break it up,'' I say 50 cents for part one and 50 cents for 
part two. We believe that demonstration projects can help 
establish standards of care for survivors. And they can be 
replicated in every city in this country, at least the 
principles that I presented here, so that all practitioners who 
come into contact with a victim or a potential victim know what 
to say and know what to do to help them achieve wellness. Thank 
you so much.
    Mr. Hastings. Mr. Woolf.
    Mr. Woolf. Thank you, Mr. Hastings. I just want to just 
echo all the comments that you made relative to education and 
the younger the better. I couldn't have said it any better 
myself, and I appreciate your comments very much.
    I think that as we look at this issue, I think we really 
can look at the words of Benjamin Franklin: An ounce of 
prevention is worth a pound of cure. And I think that that is 
really the answer to this issue, starting as young as we 
possibly can and really being able to empower our communities, 
our society, our young people, to have the voice that they 
need.
    I oftentimes reflect back on a conversation I had with my 
eldest son several years ago. He was 9 years old at the time. 
We were in the car. I had just gotten off of a work phone call. 
And he looks at me and he says: Dad, what is human trafficking?
    And I said: Man, how do I explain to a 9-year-old what 
human trafficking is, right?
    He hears me talking about it all the time on the phone. And 
so I start stumbling through this conversation with him. And he 
stops me--and I will never forget this. He stops me, and he 
says: Dad, I think what you are trying to say is you give a 
voice to those that can't speak.
    And I said: Son, I couldn't have explained it any better 
myself.
    And those wise words of my 9-year-old son echo in my head 
every day that I go to work. And I challenge you all to take 
that as well, to give a voice to those that are voiceless, to 
give them the tools, the skills, and the resources, to invest 
in education, because it really is the way that we are going to 
make a change.
    I echo the sentiments of my other colleagues up here who 
say: Listen, we have got to establish standards. There is lots 
of training out there, but is it quality training? And we hear 
a lot about awareness training. And I would encourage all of us 
to add the word ``awareness and response training.''
    We make people aware, but we don't give them the ability to 
respond and to help those that may be in trouble, whether they 
are in the process of being manipulated into a situation or 
whether they are actually being exploited. We have got to give 
a voice to the voiceless. So thank you.
    Mr. Hastings. Mr. Rodgers.
    Mr. Rodgers. We all know this is a very complex issue. We 
have said it repeatedly. And there is no silver bullet. So I 
think it is important for us to remind ourselves not to be 
reluctant to do the next right thing, because it doesn't solve 
the entire problem.
    And so I want to challenge us to keep doing that. 
Comprehensive solutions very rarely come out of the gate all at 
the same time in a synchronized swimming kind of way. So let's 
keep doing one more right thing together.
    I was very encouraged by what Chairman McGovern just said a 
minute ago, even if that wasn't his intention, in the fact that 
we have said and had some of these conversations for 10 years. 
And I think he is exactly right. I mean, even longer. But I 
think the time has come for us to put on a new lens and a new 
paradigm around this issue and pull chairs up around the table 
and have a comprehensive solution and discussion about what we 
can do and how we can do it and start, because the statistics 
are our kids.
    Mr. Hastings. Right. In the Helsinki Commission, I am very 
fond of at some point turning to the audience, but time won't 
permit today, but I do thank you all for your patience. I am 
sure that a lot of questions arise in your minds, and it is 
deeply appreciated.
    And, Mr. Woolf, your 9-year-old has moved on up but I have 
a 9-year-old and an 8-year-old granddaughter, and proof of what 
I was talking about about early intervention, both of them are 
taking artificial intelligence in the third grade. I couldn't 
spell artificial intelligence in the third grade.
    Mr. Rodgers. That is right.
    Mr. Hastings. We are adjourned. Thank you.
    [Whereupon, at 12:27 p.m., the subcommittee was adjourned.]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
</pre></body></html>
